 ~
            BU81
 ~"                              U.S. Small Business Administration
 •
 ~
                         •            Office of Inspector General
     i"h.1953 ..If....
        <l'/ST$.r
                                       Washington, DC 20416


                                                            AUDIT MEMORANDUM
                                                            Issue Date: July 29, 1999
                                                            Report Number: 9-14


TO: 	                        ~:~;tle~(s:ociate Administrator Office of Financial


FROM: 	                      JOh~1(ct~istant Inspector General for Auditing
SUBJECT: 	 Audit Memorandum, Portion of a 7(a) Loan Ineligible for SBA
           Guarantee

                                             INTRODUCTION

       The Auditing Division performed a survey of the management of the
Preferred Lender Program (PLP) review process. During our survey, we visited
the Kansas City Review Branch to analyze documentation on completed
reviews. We reviewed six SBA guaranteed loans approved through PLP, and
one of these was partially ineligible for an SBA guarantee.

                                             BACKGROUND

      SBA has authority to guarantee up to 80 percent on loans made to small
businesses. SBA lenders having PLP status are given full authority to make
SBA guaranteed loans, subject to an SBA eligibility review. When a PLP lender
determines that a loan is eligible, the lender completes a checklist providing
evidence of eligibility for review by SBA's Sacramento Loan Processing Center
(the Center). If the Center notes any problems on the checklist, the lender is
asked to resolve the issue.

                                                FINDING

SBA .and PLP Lender Approved Partially Ineligible Loan.

       SBA and a PLP lender approved an $82,000 SBA guaranteed loan, of
which $49,993 was ineligible for the guarantee because the borrower had credit
available elsewhere. SBA and The Bank of Castile (Castile), a PLP lender,
approved the loan for 5 years with a 10.5 percent interest rate. This loan was to
(1) refinance a $50,000 line of credit approved by the applicant's current lender
($49,993 of the proceeds from the SBA guaranteed loan were used to pay off the
line of credit), and (2) purchase $32,000 of new computer equipment. According
to the SBA application, the terms of the line of credit were prime plus 1 percent
(8.5 percent plus 1 percent, or 9.5 percent as of September 17, 1997), accrued
interest payable monthly. The loan was originated in 1993 and was current as of
September 17, 1997. The applicant told our auditor that their bank had not
demanded payment in full on the existing loan. Moreover, the bank informed our
auditor that their records do not show any reason they would have demanded
payment in full. Although the existing loan had terms more favorable than the
SBA guaranteed loan, the applicant told Castile that they wanted to switch
lenders because their loan officer had been changed twice in 3 months.

        In obtaining SBA's approval, however, Castile misinformed SBA about the
status of the applicant's existing loan. In their September 17, 1997, checklist
submitted to the Center, Castile stated that financing with reasonable terms was
not available elsewhere. In Castile's September 23, 1997, response to a
question raised by the Center, Castile stated that, while the existing loan
appeared to be on reasonable terms, the lender was demanding payment in full.
After receiving that statement, the Center approved the SBA guaranteed loan as
eligible for SBA guarantee.

       Title 13 CFR 120.101 states that SBA can only guarantee loans to
applicants for whom credit is not otherwise available on reasonable terms from
non-Federal sources and the lender must certify to or otherwise show SBA that
the credit is not otherwise available. According to Title 13 CFR 120.524, SBA is
released from liability on its guarantee when a PLP lender has failed to comply
materially with SBA regulations.

       Castile's loan officer informed us they accepted the application because it
appeared to be in the borrower's best interest to refinance their existing loans.
As a result, an SBA guarantee was issued for an $82,000 loan, of which $49,993
was ineligible.

Recommendations

A01 	 Notify the Bank of Castile that a record of this finding (ineligible
      refinancing) will be placed in its lender file for review during consideration
      of lender's request for PLP renewal or expansion, and place a record of
      this finding in that file.

A02 	 Notify The Bank of Castile in writing that if the SBA guaranteed loan
      defaults, the lender will be called upon to explain why the refinancing was
      eligible and why SBA should not deny liability on at least the portion of the

                                         2

      loan used to refinance the $49,993 line of credit, and place a copy of
      SBA's notification in the applicant's (Integration, Inc.) loan file.

        The Bank of Castile responded to the draft report and disagreed with our
finding. The full text of these comments and our evaluation of them are found in
Appendices 1 and 2, respectively. The Associate Administrator for Financial
Assistance also responded to the draft report and we incorporated her comments
in this report.

       The recommendations in this memorandum are based on the conclusions
of the Auditing Division. The recommendations are subject to review,
management decision, and action by your office in accordance with
existing Agency procedures for audit followup and resolution.

       Please provide us your management decision for the recommendations
within 80 days. Your management decision should be recorded on the attached
SBA Forms 1824, Recommendation Action Sheet, and show either your
proposed corrective action and target date for completion, or an explanation of
your disagreement with our recommendations.

      This report may contain proprietary information subject to the provisions of
18 USC 1905. Do not release to the public or another agency without
permission of the Office of Inspector General.

       Should you or your staff have any questions, please contact Victor R.
Ruiz, Director, Business Development Programs Group, at (202) 205-7204.




                                       3

                                                                                                              Appendix 1 



                                                                          CREDIT DEPARTMENT

      The Bank of Castile                                                   I:!'I SORTH CESTER STREET

                                                                         ,1161
                                                                              PfRRY. SEW YORK • .aHO
                                                                               ~~.,·~MO • fAX .• 7161 ~J7-~




April 21, 1999



t     Ei<c. to          ..,
US Small Business Administration
Office of the Inspector General
409 Third Street SW
Washington Office Center
Suite 5600
Washington, DC 20416

Re:     Audit Memorandum -     r "",.£j-
Dear t G'f..1v   :1
I am writing, per your request, in response to your draft audit memorandum issued in regards to
The Bank of Castile's SBA guaranteed loan to \: €'I. <+         :1 Your findings state that the Bank
misinformed SBA about the applicant's previous line of ,redit which was requested to be
refinanced. You also state that the customer's previous bank informed your office that the loan in
question was not, at the time, on demand for payment in full.

Our statement to tht Sacramento PLP Center regarding the status of the line was based on our
belief that the payments on the line of credit were to be accelerated. Accordingly, the Banks
restructuring of this debt was and still is in the best interests of the borrower. Our assumption
that payments on the line were to be accelerated was based on the commitment lener which was
provided to the bonower by their previous lender, [ f'~.4 :] In the commiunentthe lender
proposed a refinance ofthe previous 550,000 line of credit over a term of five years with an SBA
guaranty. Based on this proposal, it was evident that payments on the line were to be accelerated
or demanded.

The bonower stated, in leiter form, thall b JIIad used proceeds from the line to purchase computer
equipment. As a result, the borrower was unable to perform the line of credit as required with
monthly interest only payments and a 30 day annual clear. In reviewing the customer's situation,
it is apparent that the Bank of Castile would have been doing the business, [ ~)(. (p        "1 a
disservice by financing only the new equipment purchases. The customer, at the time, was in a
mode of growth which would have resulted in an anticipated need for additional working capital
in the upcoming months. With the line of credit as it had previously existed, the customer had no
room to borrow for operating needs to fund this new gro ...1h. In an effon to assist the business in
continuing as a "going concern entity", the Bank termed out the line of credit with payment terms
that were able to be met by the businesses cash flow and supplemented the operating needs of the
business with a 10,000 non·SBA guaranteed line of credit. As a result. we do not believe that the
SBA was misinformed nor is it our opinion that an SBA guarantee was issued for an ineligible
loan.




                                                                                                               @
                                                                                                               ,-­
                                                                                                                             I
                                                                                                               LENDER
                                                                                               Appendix 1 


 In closing, we would like to make reference to the SBA SOP 50-10. The policy regarding d"ot
refinancing states, "For a business wanting to refinance a revolving line of credit, the substantial
benefit lies in the ability ofthe business to continue to borrow once its existing line matures or its
ability to stretch the payments over a longer maturity, thereby retaining its working capital for a
longer period oftime". With the refinance provided by the Bank, both of the above stated
benefits were achieved; payments were stretched over a longer maturity and a renewed source of
working capital was provided. The SOP further states that the terming out of a line of credit will
frequently benefit companies experiencing significant growth and is an acceptable refinancing
with any reasonable justification. Refinancing of shon term debt is not subject to the 20 percent
improvement to cash flow test as is required when refinancing term debt.

Funher discussion and comments are welcomed. If you would like to discuss this response at 

greater length, please feel, free to contact me at L {;I<,. \;          J Thank you for 

your time with this maUer. 


Sincerely,


[
Commercial Credit Analyst
                                  ]
Cc:
      [                      "J
                              "
                                                                       Appendix 2

       CASTILE'S COMMENTS AND OIG EVALUATIONS

      Castile provided the following explanations as to why they believed the
loan was eligible for an SBA guarantee (see Appendix 1 for full text of the
response).

Auditee Comment 1. Castile informed SBA that payment of the $50,000 line of
credit was being demanded in full based on their belief that payments on the line
were to be accelerated. This belief was based on a commitment letter provided
by the borrower's previous lender that proposed to refinance the line over a term
of 5 years with an SBA guarantee. The proposal made it evident that payments
on the line were to be accelerated or demanded.

OIG Evaluation 1. We disagree that Castile had sufficient reason to believe that
the loan was being demanded. While the previous lender's commitment letter
proposed to refinance the line over a term of five years with an SBA guarantee,
there was no evidence that the existing line would be demanded in full if the loan
proposed in the commitment letter was not made. Also, as discussed in the body
of this audit memorandum, there was no evidence that the previous lender had or
intended to demand payment in full on the existing loan.

Auditee Comment 2. The borrower used the proceeds from the line of credit to
purchase computer equipment. As a result, the borrower was unable to perform
the line. In reviewing the borrower's situation, Castile determined that financing
only new equipment would be a disservice to the borrower. In an effort to assist
them in continuing as a "going concern entity," Castile termed out (refinanced)
the line of credit with payment terms that could be met by the business' cash
flow.

OIG Evaluation 2. The lender's payment history record showed that the
borrower was able to perform the line. While we do not take exception to the
statement that the $82,000 SBA guaranteed loan assisted the borrower, an SBA
guaranteed loan must also meet SBA eligibility requirements. As discussed
previously, this portion of the loan did not meet SBA eligibility requirements.

Auditee Comment 3. Castile believed that with the refinancing loan they made,
they provided the following benefits stated in SBA SOP 50-10:

      For a business wanting tei refinance a revolving line of credit, the
      substantial benefit lies in the ability of the business to continue to
      borrow once its existing line matures or its ability to stretch the
      payments over a longer maturity, thereby retaining its working
      capital for a longer period of time.
                                                                      Appendix 2

According to Castile, the SOP further states that:

       [l]he terming out of a line of credit will frequently benefit companies
       experiencing significant growth and is an acceptable refinancing
       with any reasonable justification. Refinancing of short-term debt is
       not subject to the 20 percent improvement to cash flow test as is
       required when refinancing term debt.

OIG Evaluation 3. We do not take exception to any of these statements, but
before these benefits can be realized and prior to using the cited criteria for
refinancing short term debt, a loan must first be eligible for refinancing.
According to SOP 5010, "To be eligible for refinancing with 7(a) proceeds, the
existing debt must not presently be on reasonable terms AND the refinancing
must provide a substantial benefit to the small business." As discussed in the
body of this audit memorandum, the existing loan had more favorable terms than
Castile's loan, and the lender had not demanded payment in full on the existing
loan. As such, this loan was ineligible for refinancing.
                                                                                    Appendix 3 


                           OFFICE OF INSPECTOR GENERAL 


                              AUDIT REPORT DISTRIBUTION 


Recipient                                                                   Number of Copies 


Associate Deputy Administrator for 

 Capital Access .......................................................................1 


Associate Administrator for 

Financial Assistance ...............................................................1 


Deputy Associate Administrator for 

Financial Assistance ...............................................................1 


Director, Preferred Lender 

Program Processing Center .....................................................1 


Director, Fresno Commercial Loan 

Service Center ......................................................................1 


Director, Buffalo District Office ................................................... 1 


Office of the Chief Financial Officer .............................................1 

Attention: Jeff Brown

General Counsel .....................................................................2 

